No. 19-1299
THE CHAMBERLAIN GROUP, INC.,
Petitioner,

v.

TECHTRONIC INDUSTRIES CO.,
TECHTRONIC INDUSTRIES NORTH AMERICA, INC.,
ONE WORLD TECHNOLOGIES, INC.,
OWT INDUSTRIES, INC., RYOBI TECHNOLOGIES, INC.,
Respondents.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
that all parties required to be served have been
served with a digital copy of the Brief of High 5
Games, LLC as Amicus Curiae in Support of Petition
for Writ of Certiorari, which was sent on July 8, 2020
by electronic mail to the persons indicated below.
The parties have consented to electronic service.
E. Joshua Rosenkranz
Orrick, Herrington & Sutcliffe LLP
51 West 52nd Street
New York, NY 10019
(212) 506-5380
jrosenkranz@orrick.com
Counsel for Petitioner
William R. Peterson
Morgan, Lewis & Bockius LLP
1000 Louisiana St., Ste. 4000
Houston, TX 77002
(713) 890-5188

william.peterson@morganlewis.com
Counsel for Respondents
Pursuant to the Court’s Order of April 15, 2020
indicating that “with respect to every document filed
in a case prior to a ruling on a petition for a writ of
certiorari or petition for an extraordinary writ, or a
decision to set an appeal for argument, a single paper
copy of the document, formatted on 8½ x 11 inch
paper, may be filed,” and that “[t]he document may
be formatted under the standards set forth in Rule
33.2, or under the standards set forth in Rule 33.1
but printed on 8½ x 11 inch paper,” I also certify that
on this 8th day of July, 2020, I caused one copy of
this brief formatted under the standards set forth in
Rule 33.1 but printed on 8½ x 11 inch paper to be
sent via a third-party commercial carrier for delivery
to the Clerk of this Court within 3 calendar days.
I declare under penalty of perjury that the
foregoing is true and correct.
Robert C. Ryan
Counsel of Record

